App.67a
PLAINTIFF EMMANUEL EDOKOBI BY
HIMSELF AS A PRO SE (“PLAINTIFF’)
FILES A MOTION FOR THE REMOVAL OF
JUDGE PAUL W. GRIMM FROM HEARING
CIVIL CASE 8:19-CV-00248-PWG EDOKOBI V.
TOYOTA MOTOR CREDIT CORPORATION ET AL
PURSUANT TO DISABILITY ACT OF 1980,
28 U.S.C. §§ 351-364 (“ACT”), AND RULES
FOR JUDICIAL-CONDUCT AND JUDICIALDISABILITY PROCEEDINGS,
248 F.R.D. 674 (2008)
(APRIL 5, 2019)
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
Southern Division
EMMANUEL EDOKOBI,
Plaintiff,
v.

TOYOTA MOTOR CREDIT CORPORATION,
ET AL.,
Defendants.
Case No.: 8:19-CV-00248-PWG
Plaintiff Emmanuel Edokobi by Himself as a pro
se (“Plaintiff) files a Motion for the Removal of Judge
Paul W. Grimm From Hearing Civil Case 8:19-cv-

App.68a

00248-PWG Edokobi v. Toyota Motor Credit Corpora­
tion et al Pursuant to Disability Act of 1980, 28
U.S.C. §§ 351-364 (“Act”), and Rules for Judicial-Con­
duct and Judicial-Disability Proceedings, 248 F.R.D.
674 (2008), and for good cause Plaintiff asserts here­
under as follows:
1. Plaintiff asserts that; Judge Paul W. Grimm
is Judicially Disabled to Hear Civil Case 8:19-cv00248-PWG Edokobi v. Toyota Motor Credit Corpora­
tion et al because; Plaintiff has filed a Civil Action
against Judge Paul W. Grimm with Civil Case No.
8:19-cv-00905-GJH currently pending in this Court.
2. Plaintiff asserts that; Judge Paul W. Grimm
is Judicially Disabled to Hear Civil Case 8:19-cv-00248PWG Edokobi v. Toyota Motor Credit Corporation et
al because; these documents mentioned hereunder
have been filed in relation to Civil Case No. 8:19-cv00905-GJH.
A.

Standing Order Concerning Removal
(“ORDER”) entered in (ECF No. 3) of Civil
Case No. 8:19-cv-00905-GJH and Signed by
Honorable Judge George Jarrod Hazel.

B.

Copies of Pages 1-2 of Civil Case Docket No.
Civil Case No. 8:19-cv-00905-GJH.

C.

Plaintiffs Objections of Contents of Civil
Cover Sheet of the Removal Completed by
Defendant Grimm (ECF l-l) of Civil Case
No. 8:19-cv-00905-GJH filed on April 3, 2019.

D.

Plaintiffs Disclosure of Affiliations and
Financial Interest Pursuant to Local Rule
103.3 (D. Md) in relation Civil Case No. : 19cv-00905-GJH filed on April 3, 2019.

App.69a

3. Plaintiff asserts that; Judge Paul W. Grimm
is Judicially Disabled to Hear Civil Case 8:19-cv00248-PWG Edokobi v. Toyota Motor Credit Corpora­
tion et al Pursuant to Civil Case No. 8:19-cv-00905GJH which Plaintiff has filed against Judge Paul W.
Grimm.
4. Plaintiff asserts that; Judge Paul W. Grimm
is Judicially Disabled to Hear Civil Case 8:19-cv00248-PWG Edokobi v. Toyota Motor Credit Corpora­
tion et al because; Plaintiff will not participate in the
Civil Case No. 8:19-cv-00248-PWG Edokobi v. Toyota
Motor Credit Corporation et al: until the Civil Case
is assigned to a different Judge.
5. Plaintiff asserts that; Judge Paul W. Grimm
is Judicially Disabled to Hear Civil Case 8:19-cv00248-PWG Edokobi v. Toyota Motor Credit Corpora­
tion et al because; Judge Primm cannot in good con­
science provide an unbiased decision in the Civil
Case No. 8:19-cv-00248-PWG Edokobi v. Toyota Motor
Credit Corporation et al because; of the outstanding
Plaintiffs Civil Case against Judge Grimm.
6. Wherefore the foregoing considered, Plaintiff
requests that, Plaintiffs Civil Case No. 8:19-cv-00248PWG Edokobi v. Toyota Motor Credit Corporation et
al; should be assigned to a different Judge at the
U.S. District Court for the District of Maryland
following Plaintiffs Civil Case No. 8:19-cv-00905GJH against Judge Paul W. Grimm, because; Judge
Grimm Cannot in good conscience provided an
unbiased decision in the Civil Case No. 8:19-cv-00248PWG Edokobi v. Toyota Motor Credit Corporation et
al.

App.70a
Respectfully submitted,
/s/ Emmanuel Edokobi
Pro Se
200 Stratton Drive
Potomac, Maryland 20854
Telephone Cell:
301-793-2882
E-mail: emmanuel2040@gmail.com

App.71a
CIVIL ACTION COMPLAINT
AGAINST JUDGE PAUL W. GRIMM
UNITED STATES DISTRICT JUDGE
(FEBRUARY 25, 2019)
THE CIRCUIT COURT
FOR MONTGOMERY COUNTY, MARYLAND
EMMANUEL EDOKOBI, 2005 Stratton Drive,
Potomac, Maryland 20854, Pro Se,
Plaintiff,
v.
JUDGE PAUL W. GRIMM (in his Personal and
Official Capacities) 6500 Cherrywood Lane,
Greenbelt, Maryland 20770,
Defendant.
Civil Action No: V463628
NOW Comes Plaintiff Emmanuel Edokobi by
Himself as a pro se (Plaintiff) brings this Civil Action
under 42 U.S.C. 1983 arid 8th Amendment Act of
1959 and Under due process and Equal protection
clauses of 5th and 14th Amendments to the United
States Constitutions and under Maryland Constitution,
Declaration of Rights, Art. 24 Against Defendant Judge
Paul W. Grimm’s (“Paul W. Grimm”) Refusal to Issue
A Final Court Order On the Proposed Imposition of
Pre-Filing Injunction Against Plaintiff as contained

App.72a

in the Judge Paul W. Grimm’s LETTER ORDER
Filed on December 3, 2014 in (ECF No, 15) of the Civil
Case 8:13-cv-03707-PWG and Plaintiff hereby demands
a trial by jury on all issues so triable pursuant to
Pursuant to Md. Rule 2-325(A); and Plaintiff will not
stipulate to a jury of less than twelve (12) jurors and
Plaintiff by this Civil Action avers on knowledge,
information, and belief hereunder as follows:
I.

Party (Plaintiff)

1. Plaintiff Emmanuel Edokobi is a natural person
and citizen of United States of America and of the
State of Maryland.
2. Plaintiff at all-time relevant to this action is a
resident of Montgomery County and a Homeowner in
Potomac, Maryland.
II.

Party (Defendant)

3. Defendant Judge Paul W. Grimm is a natural
person and citizen of United States of America and
Judge Paul W. Grimm is sued for damages in his
personal and official capacities.
4. Defendant Judge Paul W. Grimm at ail-time
relevant to this action is a federal court judge whose
administrative judicial office is at the United States
District Court for the District of Maryland, Southern
Division Location; at 6500 Cherrywood Lane Greenbelt,
Maryland 20770.
III. Jurisdiction and Venue
5. The Jurisdiction of the Circuit Court for
Montgomery County of Maryland is proper because;
this action arises under 42 U.S.C. §§ 1983 et seq. (the

App.73a
“Civil Rights Act”) to redress the deprivation of rights
secured by the Fourteenth Amendment to the United
States Constitution, and Due Process under MD
Constitution, Declaration of Rights, Art 24 Due Process.
6. The jurisdiction of the Circuit Court for
Montgomery County of Maryland is proper pursuant
to Md. Cts. & Jud. Proc-6-103(b)(3)(4)(5)(6). The
Circuit for Montgomery County has Jurisdiction to
hear this action pursuant to Md. MD Cts & Jud Pro
Code § 1-501.
7. The Venue of Circuit Court for Montgomery
County of Maryland is proper because, the Circuit
allows compensatory, declaratory, reliefs which Plaintiff
seeks against Judge Paul W. Grimm.
8. The Venue of Circuit Court for Montgomery
County of Maryland is proper because Circuit Court
has subject matter jurisdiction in lawsuits between
citizens of different states and the amount in claim is
limitless; and Documents relevant to the Claims are
located in this County.
IV. Nature of Action
9. This is a civil suit that seeks damages, and
declaratory relief and compensation under § 1 of the
Civil Rights Act of 1871, as amended, 42 U.S.C.
§ 1983, against Defendant Judge Paul W. Grimm for
committing acts, under color of law, with the intent
and for the purpose of depriving Plaintiff of His
Rights Secured Under the Constitution and Laws of
the United States of America by Defendant Judge
Paul W. Grimm’s Refusal to Issue Final Court Order
on the Proposed Imposition of Pre-Filing Injunction
against Plaintiff as contained in the Judge Paul W.

App.74a

Grimm’s LETTER ORDER Filed on December 3, 2014
in (ECF No. 15) of the Civil Case 8:13-cv-03707PWG. (See Exhibit Number l).
10. This is a civil rights case which involves
seeking redress for the violation of a person’s con­
stitutional rights. This type of claim is often brought
under the federal statute, 42 U.S.C. S 1983. Under
this law, a person who acts under color of state law
to violate another’s constitutional rights may be
liable for damages.
11. 42 U.S.C. § 1983—States in relevant part:
“Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen
of the United States or other person within
the jurisdiction thereof to the deprivation of
any rights, privileges, or immunities secured
by the Constitution and laws, shall be liable
to the party injured in an action at law, suit
in equity, or other proper proceeding for
redress, except that in any action brought
against a judicial officer for an act or
omission taken in such officer’s judicial
capacity, injunctive relief shall not be granted
unless a declaratory decree was violated or
declaratory relief was-unavailable”.
12. This civil action seeks to challenge Defendant
Judge Paul W. Grimm’s action, which was committed
under color of law with the intent and for the
purpose of depriving Plaintiffs Constitutional Right
to Fifth Amendment (Amendment V) to the United
States Constitution, which is part of the Bill of Rights,

App.75a
ratified in 1791 by Judge Paul W. Grimm’s Failure to
Provide Court on the Proposed Imposition of PreFiling Injunction Against Plaintiff as contained in
the Judge Paul W. Grimm’s LETTER ORDER Filed
on December 3, 2014 in (ECF No. 15) of the Civil
Case 8:13-cv-03707-PWG. (See Exhibit Number).
13. That the DUE PROCESS CLAUSE of the
Fifth Amendment and the Fourteenth Amendments
to the United States Constitutions States Provide in
relevant part as follows:
The Fifth Amendment creates a number of
rights relevant to both criminal and civil
legal proceedings. In criminal cases, the Fifth
Amendment guarantees the right to a grand
jury, forbids “double jeopardy,” and protects
against self-incrimination. It also requires
that “DUE PROCESS OF LAW” be part of
any proceeding that denies a citizen “life,
liberty or property” and requires the govern­
ment to compensate citizens when it takes
private property for public use.
The Fourteenth Amendment states in relev­
ant part:
“[N]or shall any State deprive any person of
Life, Liberty, or Property, WITHOUT DUE
PROCESS OF LAW”
The Eighth Amendment prohibits cruel and
unusual punishments, but also mentions
“excessive fines” and bail. The “excessive
fines” clause surfaces (among other places)
in cases of civil and criminal forfeiture, for
example when property is seized during a
drug raid.”

App.76a

MD Constitution, Declaration of Rights, Art.
19 provides in pertinent part: “that every
man, for any injury done to him in his per­
son or property, ought to have remedy by
the course of the Law of the Land, and
ought to have justice and right, freely with­
out sale, fully without any denial, and
speedily without delay, according to the
Law of the Land”.
Article 24 of the Maryland, Declaration of
Rights provides in pertinent part: “that no
man ought to be taken or imprisoned or dis­
seized of his freehold, liberties or privileges,
our outlawed, or exiled, or, in any manner,
destroyed, or Deprived of His Life, Liberty
or Property”.
V.

Plaintiffs Assertions Common to All Complaints

14. On November 13, 2013 Plaintiff filed a Civil
Action at the U.S. District Court for the District of
Maryland against M & M Mortgage Services, Inc.;
Juan Gonzalez; and Mortgage Specialist, Inc., and
the Civil Case was designed as Edokobi v. M & M
Mortgage Services, Inc., et al., with Civil Case No.
PWG-13-3707 and the Civil Case was assigned to
Defendant Judge Paul W. Grimm.
15. Plaintiff asserts that; Plaintiff filed the Civil
Action against M & M Mortgage Services, Inc.; Juan
Gonzalez and Mortgage Specialist, Inc., because; M
and M Mortgage Services Inc., deliberately and willfully
destroyed the Conduits Pipes in Plaintiffs House by
Using Unconventional Chemicals in their Unsolicited
Winterization Activities that M and M Mortgage

App.77a
Services Inc., Performed at Plaintiffs Private House
at 2005 Stratton Drive Potomac, Maryland 20854.
16. Plaintiff asserts that, Plaintiffs House on
the Market for Short Sale and that; Plaintiff went to
Work and upon returning from work that; M and M
Mortgage Services Inc., entered Plaintiffs Plaintiff to
Perform the Unsolicited Winterization Activities.
17. Plaintiff asserts that, M and M Mortgage
Services Inc., after Performing the Unsolicited
Winterization Activities that; M and M Mortgage
Services Inc., Lock Plaintiff with Different Locks
wherefore Plaintiff Was Not Able To Enter Plaintiffs
House After Returning From Work.
18. Plaintiff asserts that; M and M Mortgage
Services Inc., Did Not Provide Documents on the
Winterization Activities that M and M Mortgage
Services Inc., performed inside Plaintiffs House and
that; M and M Mortgage Services Inc., Did Not
Leave Contact information.
19. Plaintiff asserts that; Plaintiff filed the Civil
Action against M and M Mortgage Services Inc., Juan
Gonzalez and Mortgage Specialist, Inc., because M
and M Mortgage Services Inc., deliberately and
willfully destroyed the Conduits Pipes in Plaintiffs
House by Using Unconventional Chemicals in their
Unsolicited Winterization Activities that M and M
Mortgage Services Inc., while the Plaintiff was on
the Market for Short Sale and While Plaintiff was at
Work.
20. Plaintiff asserts that, Plaintiff Called Litton
Loan Servicing LP who was Plaintiff Loan Servicer
to obtain information on the Winterization, so that;
Plaintiff could provide the Winterization Documents

App.78a
to the Would-Be-Buyers of Plaintiffs House which
was about Twenty-six (26) Days in the Market for
the Short Sale.
21. Plaintiff asserts that Litton Loan Servicing
LP informed Plaintiff that; Litton Loan Servicing LP
Did Not Order for the Winterization at Plaintiffs
House.
22. Plaintiff asserts that, after a protracted legal
action with Litton Loan Servicing LP that; gone even
to the United States Supreme Court that; Plaintiff
and Litton Loan Servicing LP Made Peace and that:
Plaintiff Accented Litton Loan Servicing LP’s Offer
for the Sale of Plaintiffs House on Short Sale
Agreement.
23. Plaintiff asserts that, Plaintiff had received
numerous Offers and that; Plaintiff was delaying the
acceptance of an Offer because; Plaintiff had not
received Winterization Documents.
24. Plaintiff asserts that; M and M Mortgage
Services Inc., Refused to Release the Winterization
Documents because; M and M Mortgage Services
Inc., deliberately and willfully destroyed the Conduits
Pipes in Plaintiffs House by Using Unconventional
Chemicals in their Unsolicited Winterization Activities
and that; up till this moment that; A Section of
Plaintiff ‘s House continues to Leak-Bath Water on
the Walls.
25. Plaintiff asserts that; Plaintiff Has Spent
Well-over Thirty-two ($32,000.00) in the Repairs of
those Conduit Pipes that, M and M Mortgage Services
Inc., deliberately and willfully destroyed at Plaintiffs
House by Using Unconventional Chemicals in their
Unsolicited Winterization Activities at Plaintiffs House.

App.79a

26. Plaintiff asserts that, Plaintiff would have
remained in serious legal battles with Anybody that,
had purchased Plaintiffs House Without Full Dis­
closure of the Winterization Activities.
VI. Plaintiffs Legal Action Against M & M Mortgage
Services, Inc.; Juan Gonzalez and Mortgage
Specialist. Inc.. Was Proper
27. Plaintiffs legal action against M & M Mort­
gage Services, Inc.; Juan Gonzalez and Mortgage
Specialist, Inc., was proper; because M & M Mortgage
Services, Inc.; Juan Gonzalez and Mortgage Specialist,
Inc., Did Not Have the Legal Right to Winterized
Plaintiffs House.
28. Plaintiff s legal action against M & M Mort­
gage Services, Inc.; Juan Gonzalez; and Mortgage
Specialist, Inc., was proper; because M & M Mortgage
Services, Inc.; Juan Gonzalez and Mortgage Specialist,
Inc., Did Not Have the Legal Right to Lock Plaintiffs
House Without Court Orders.
29. Plaintiffs legal action M & M Mortgage Ser­
vices, Inc.; Juan Gonzalez and Mortgage Specialist, Inc
was proper; because M and M Mortgage Services
Inc., Should Not Have Winterized Plaintiffs House
Without Plaintiffs Knowledge because, Plaintiffs House
was on the Market for the Short Sale as Arranged by
Plaintiff and Litton Loan Servicing LP.
30. Plaintiffs legal action against M & M Mort­
gage Services, Inc.; Juan Gonzalez and Mortgage
Specialist; was properly taken and that; Defendant
Judge Paul W. Grimm Did Not See Plaintiff As A
Peaceful Man Who Had Forgone all the Mistreatments

App.80a
that Litton Loan Servicing LP had meted upon
Plaintiff.
31. Defendant Judge Paul W. Grimm Did Not
See Plaintiff As A Peaceful Man Who Had Forgone
all the Mistreatments that Litton Loan Servicing LP
had meted upon Plaintiff that; includes the Destruction
of Plaintiffs Personal Properties Kept inside Plaintiffs
House at 2005 Stratton Drive Potomac, Maryland
20854.
32. Defendant Judge Paul W. Grimm Did Not
See Plaintiff As A Peaceful Man Who Had Forgone
all the Mistreatments that Litton Loan Servicing LP
had meted upon Plaintiff that; includes Locking
Plaintiffs House Without Court Orders.
33. Defendant Judge Paul W. Grimm Did Not
See Plaintiff As A Peaceful Man Who Had Forgone
all the Mistreatments that Litton Loan Servicing LP
had meted upon Plaintiff that; includes Sending
People to be Spying on Plaintiffs Movements including
while Plaintiff was Sleeping inside Plaintiffs House.
VII. Court Proposed Imposition of Pre-Filing Injunction
Against Plaintiff as Contained in the Judge Paul
W. Grimm’s Letter Order
34. Defendant Judge Paul W. Grimm Sees Plain­
tiff As A Trouble-Maker Who; Must Be Controlled by
Issuing Court Proposed Imposition of Pre-Filing
Injunction Against Plaintiff as contained in Defendant
Judge Paul W. Grimm’s LETTER ORDER and a copy
of Defendant’s Defendant Judge Paul W. Grimm’s
Order is inserted in the Footnote Number 1 hereunder
as follows:

App.81a
1 A Copy of Court Proposed Imposition of
Pre-Filing Injunction Against Who as con­
tained in Defendant Judge Paul W. Grimm’s
LETTER ORDER is hereby Marked Exhibit
Number 1.
35. Defendant Judge Paul W. Grimm Sees Plain­
tiff As A Trouble-Maker That; Must Be Controlled,
because; when M & M Mortgage Services, Inc.;
Mortgage Specialist, Inc and Juan Gonzalez’s Attorneys
Filed A Motion for Sanction Against Plaintiff that;
Defendant Judge Paul W. Grimm Granted the Motion
for Sanction Against An Innocent Man.
36. Defendant Judge Paul W. Grimm Sees Plain­
tiff As A Trouble-Maker Who; Must Be Controlled,
because; Defendant Judge Paul W. Grimm Wanted to
Satisfy the Demands of the Corporate Attorneys.
2 A copy of M and M Mortgage Services
Inc., and Juan Gonzalez’s Attorneys filed
Motion for Sanction Against Plaintiff that;
Defendant Judge Paul W. Grimm Granted
is hereby Marked Exhibit Number 2.
37. Defendant Judge Paul W. Grimm Sees Plain­
tiff As A Trouble-Maker Who; Must Be Controlled,
because; Defendant Judge Paul W. Grimm Did Not
Consider all those Valid Points that Plaintiff had
raised in Plaintiffs Motion in Opposition to M & M
Mortgage Services, Inc.; Mortgage Specialist, Inc.,
and Juan Gonzalez’s Attorneys’ Motion for Sanction
Against Plaintiff.
38. Defendant Judge Paul W. Grimm Sees Plain­
tiff As A Trouble-Maker Who; Must Be Controlled, and
that; Plaintiff Did Not Deserve To Be Sanctioned as
Demanded by M and M Mortgage Services Inc.,

App.82a

Mortgage Specialist, Inc., and Juan Gonzalez’s
Attorneys.
A copy of Plaintiff s Motion in Opposition to
M and M Mortgage Services Inc., and Juan
Gonzalez’s Attorneys’ Motion for Sanction
Against Plaintiff is hereby Marked Exhibit
Number 3.
39. Defendant Judge Paul W. Grimm Sees Plain­
tiff As A Trouble-Maker Who; Must Be Controlled,
because; Defendant Judge Paul W. Grimm Does Not
Want To Consider The United States Court Of Anneals
For The Fourth Circuit’s Per Curiam on the Appeal on
M and M Mortgage Services Inc., Mortgage Specialist,
Inc., and Juan Gonzalez; which says that; “Prefiling
Injunction Determination Remains Pending in the
District Court” and that; Defendant Paul W. Grimm
Does Not Want to Provide the Closure of the Civil
Action.
40. Defendant Judge Paul W. Grimm Sees Plain­
tiff As A Trouble-Maker Who; Must Be Controlled,
because; the Prefiling Injunction Determination
Remains Pending in the District Court” and it is now
approaching Five (5) Years that; Defendant Paul W.
Grimm Refused to Issue His Final Order on the
“Prefiling Injunction Against Plaintiff Pending in the
District Court” as indicated in The United States
Court Of Appeals For The Fourth Circuit’s Per Curiam
issued on March 19, 2015.
4
A copy of The United States Court Of
Appeals For The Fourth Circuit’s Per Curiam
is hereby Marked Exhibit Number 4.
41. Defendant Judge Paul W. Grimm Sees Plain­
tiff As A Trouble-Maker Who; Must Be Controlled, for

App.83a
which Defendant Paul W. Grimm Wants to Punish
Plaintiff by Defendant Paul W. Grimm’s Refusal to
bring to a Closure the Prefiling Injunction Against
Plaintiff which is Pending in the District Court Since
December 12, 2014. (See Exhibit Number l).
42. Defendant Judge Paul W. Grimm Sees Plain­
tiff As A Trouble-Maker Who; Must Be Controlled, for
which Defendant Paul W. Grimm Does Not Want to
Issue His Final Orders on the Prefiling Injunction
Determination Remains Pending in the District Court”
because; Defendant Paul W. Grimm Knows Even-toowell that; Plaintiff Will Appeal Defendant Paul W.
Grimm’s Negative Orders.
VIII.

Causes of Action

Count 1—Violation of Constitutional and Civil
Rights of Due Process Under the Fourteenth
Amendment Pursuant to 42 U.S.C.§§ 1983
(Against Defendant Judge Paul W. Grimm)
43. Plaintiff incorporates by reference the
allegations set forth at paragraphs 1 through 42 as
though fully set forth herein.
44. As set forth herein, Violation of Constitutional
and Civil Rights of Due Process under the Fourteenth
Amendment to the United States Constitution
Pursuant to 42 U.S.C.§§ 1983 against Defendant Judge
Paul W. Grimm.
45. Defendant Paul W. Grimm’s Refusal To Issue
the Final Court Order on the Prefiling Injunction
Against Plaintiff Pending in the District Court Since
December 12, 2014 for Civil Case Number Case 8:13-

App.84a
cv-03707-PWG is a blatant violation of Plaintiffs Due
Process.
46. Defendant Judge Paul W. Grimm’s Refusal
to bring to a Closure the Prefiling Injunction Against
Plaintiff Pending in the District Court Since December
12, 2014 was an action committed under color of law
with the intent and for the purpose of depriving
Plaintiffs Constitutional Right to Due Process pursuant
to Fourteenth Amendment to the United States Con­
stitution adopted July 9, 1868.
47. That Defendant Judge Paul W. Grimm’s
action has deprived Plaintiff of His Fourteenth Amend­
ment Due Process and Equal Protection Of The
Laws.
48. Defendant Judge Paul W. Grimm in the
LETTER ORDER Filed on December 3, 2014 States
Very Clearly that; Defendant Judge Paul W. Grimm
was waiting for The United States Court Of Appeals
For The Fourth Circuit’s Decision: Before He Could
Issue His Final Ruling on the Pre-Filing Injunction
Against Plaintiff and that: The United States Court
Of Appeals For The Fourth Circuit’s Per Curiam was
filed on March 19. 2015. (See Exhibits 1 and 4).
49. WHEREFORE, Plaintiff respectfully requests
this Court to grant Plaintiff Declaratory Judgment
against Judge Paul W. Grimm and the Other Relief
Set Forth Hereinafter in the Demand for Relief:

App.85a

Count 2—Violation of Right of Due Process to
the Fourteenth Amendment to the United States
Constitution, and Article 24 of the Maryland
Constitution, Declaration of Rights 42 U.S.C.
1983 (Against Defendant Judge Paul W. Grimm)
50. Plaintiff incorporates by reference the alle­
gations set forth at paragraphs 1 through 49 as though
fully set forth herein.
51. As set forth herein, Violation of Right of
Due Process to the Fourteenth Amendment to the
United States Constitution, and Due Process of Article
24 of the Maryland Constitution, Declaration of Rights
Pursuant to 42 U.S.C. 1983 against Defendant Judge
Paul W. Grimm.
52. The Maryland Constitution Declaration of
Rights, Art. 24 states Due Process protections of
Plaintiffs:
“That no man ought to be taken or imprisoned
or disseized of his freehold, liberties or
privileges, or outlawed, or exiled, or, in any
manner, destroyed, or deprived of his life,
liberty or property, but by the judgment of
his peers, or by the Law of the land (amended
by Chapter 681, Acts of 1977, ratified Nov.
7, 1978)”.
53. Plaintiff asserts that; Maryland’s Constitution
includes increased protections under its Declaration
of Rights for historical natural rights rooted in the
history and tradition of English common law as they
existed on July 4, 1776 and has made those rights
unalienable unless specifically abrogated by statute
of the Legislature of Maryland, or by judicial ruling.

App.86a
54. Accordingly, the actions and practice fail
constitutional muster under strict scrutiny and are
therefore illegal and unconstitutional for Defendant
Judge Paul W. Grimm to violation Plaintiffs Right of
Due Process to the Fourteenth Amendment to the
United States Constitution, and Due Process of Article
24 of the Maryland Constitution, Declaration of Rights
Pursuant to 42 U.S.C. 1983.
55. Plaintiff is suffering and will continue to
suffer irreparable harm because of Defendant’s Action
of Refusal to Issue the Final Court Order on the
Prefiling Injunction Against Plaintiff Pending in the
District Court Since December 12. 2014 for Civil
Case Number Case 8:13-cv-03707-PWG which is a
blatant violation of Plaintiffs Due Process.
56. Plaintiff Has No Adequate Remedy at law
and as such apply to this Court for Declaratory Relief
and Defendant Judge Paul W. Grimm.
57. For these violations Plaintiffs have been
harmed and incurred severe emotional damages.
58. WHEREFORE, Plaintiff respectfully requests
this Court to grant Plaintiff Declaratory Judgment
against Judge Paul W. Grimm and the Other Relief
Set Forth Hereinafter in the Demand for Relief:
Count 3—Violation of Eighth Amendment of
Cruel and Unusual Punishments Constitutional
and Civil Rights Pursuant to 42 U.S.C.§§ 1983
(Against Defendant Judge Paul W. Grimm)
59. Plaintiff incorporates by reference the alle­
gations set forth at paragraphs 1 through 58 as
though fully set forth herein.

App.87a

60. As set forth herein, Violation of Eighth
Amendment of Cruel and unusual punishments Consti­
tutional and Civil Rights Violation Pursuant to 42
U.S.C. §§ 1983 Against Defendant Judge Paul W.
Grimm.
61. Defendant Judge Paul W. Grimm’s Refusal
to Issue His Final Order on the Prefiling Injunction
Against Plaintiff Pending in the District Court Since
December 12. 2014 for Civil Case Number Case 8:13cv-03707-PWG is designed to Punish Plaintiff severely.
62. Federal Defendants in their Motion to Con­
solidate Plaintiffs Actions Cited Defendant Judge
Paul W. Grimm’s Prefiling Injunction Against Plaintiff.
63. Defendants in the Plaintiffs Civil Action
against Mondo International LLC, et al., Cited
Defendant Judge Paul W. Grimm’s Prefiling Injunction
Against Plaintiff in their Motions.
64. Defendant in the Plaintiffs Civil Action
against Toyota Motor Credit Corporation et al. Cited
Defendant Judge Paul W. Grimm’s Prefiling Injunction
Against Plaintiff in His Motion.
65. Plaintiff is suffering and will continue to
suffer irreparable harm because of Defendant’s Action
of Refusal to Issue the Final Court Order on the Pre­
filing Injunction Against Plaintiff Pending in the
District Court Since December 12, 2014 for Civil
Case Number Case 8:13-cv-03707-PWG which is a
blatant violation of Plaintiffs Due Process
66. Plaintiff Has No Adequate Remedy at law
and as such apply to this Court for Declaratory Relief
and Defendant Judge Paul W. Grimm.

App.88a

67. WHEREFORE, Plaintiff respectfully requests
this Court to grant Plaintiff Declaratory Judgment
against Judge Paul W. Grimm and the Other Relief
Set Forth Hereinafter in the Demand for Relief:
Count 4—Abuse of Power and Judicial Misconduct
(Against Defendant Judge Paul W. Grimm)
68. Plaintiff incorporates by reference the alle­
gations set forth at paragraphs 1 through 67 as
though fully set forth herein.
69. As set forth herein, abuse of Power and
Judicial Misconduct against Judge Paul W. Grimm.
70. Defendant Judge Paul W. Grimm Sees Plain­
tiff As A Trouble-Maker Who; Must Be Controlled,
because; the Prefiling Injunction Determination
Remains Pending in the District Court” and it is now
approaching Five (5) Years that; Defendant Paul W.
Grimm Has Refused to Issue His Final Order on the
“Prefiling Injunction Against Plaintiff Pending in the
District Court”.
71. Defendant Judge Paul W. Grimm Sees Plain­
tiff As A Trouble-Maker Who; Must Be Controlled,
because; Defendant Judge Paul W. Grimm Did Not
Consider all those Valid Points that Plaintiff had
raised in Plaintiffs Motion in Opposition to M & M
Mortgage Services, Inc.; Mortgage Specialist, Inc.,
and Juan Gonzalez’s Attorneys’ Motion for Sanction
Against Plaintiff.
72. Defendant Judge Paul W. Grimm Sees Plain­
tiff As A Trouble-Maker Who; Must Be Controlled, and
that; Plaintiff Did Not Deserve To Be Sanctioned as
Demanded by M and M Mortgage Services Inc.,

App.89a

Mortgage Specialist, Inc., and Juan Gonzalez’s Attor­
neys
73. Plaintiff is suffering and will continue to
suffer irreparable harm because of Defendant’s Action
of Refusal to Issue the Final Court Order on the Pre­
filing Injunction Against Plaintiff Pending in the
District Court Since December 12. 2014 for Civil
Case Number Case 8:13-cv-03707-PWG.
74. For these violations Plaintiffs have been
harmed and incurred severe emotional damages.
75. WHEREFORE, Plaintiff respectfully requests
this Court to grant Plaintiff Declaratory Judgment
against Judge Paul W. Grimm and the Other Relief
Set Forth Hereinafter in the Demand for Relief:
Count 5—Violation of Due Process of Fifth
Amendment to the United States Constitution
By Depriving Plaintiffs Due Process of Law
(Against Defendant Judge Paul Grimm)
76. Plaintiff incorporates by reference the alle­
gations set forth at paragraphs 1 through 75 as though
fully set forth herein.
77. As set forth herein, Violation of Due Process
of Fifth Amendment to the United States Constitution
by Depriving Plaintiffs Due Process Against Judge
Paul W. Grimm.
The Fifth Amendment states in relevant part:
“No person shall be . ... [d]deprived of life, Liberty,
Or Property, without Due process of law.
78. Defendant Judge Paul W. Grimm’s Refusal
to Issue the Final Order the Prefiling Injunction
Against Plaintiff Pending in the District Court Since

App.90a

December 12. 2014 for Civil Case Number Case 8:13cv-03707-PWG is a blatant violation of Plaintiffs
Due Process pursuant to Fifth Amendment.
79. Defendant Judge Paul W. Grimm Has Not
Provided His Reason or Reason for His Refusal to
Issued His Final Order on Prefiling Injunction Against
Plaintiff Pending in the District Court Since December
12. 2014. (Exhibits 1 and 4).
80. Plaintiff is suffering and will continue to
suffer irreparable harm because of Defendant’s Action
of Refusal to Issue the Final Court Order on the
Profiling Injunction Against Plaintiff Pending in the
District Court Since December 12. 2014 for Civil
Case Number Case 8:13-cv-03707-PWG.
81. For these violations Plaintiffs have been
harmed and incurred severe emotional damages.
82. WHEREFORE, Plaintiff respectfully requests
this Court to grant Plaintiff Declaratory Judgment
against Judge Paul W. Grimm and the Other Relief
Set Forth Hereinafter in the Demand for Relief:
WHEREFORE, Plaintiffs respectfully request that
the court grant the relief set forth hereinafter in the
request for relief.
XI. Petition for Relief
WHEREFORE, Plaintiffs Petition for Declaratory
Judgment against Defendant Judge Paul W. Grimm
as follows:
A.

A declaration that Defendant Judge Paul W.
Grimm’s Refusal to Issue A Final Order on
the Prefiling Injunction Against Plaintiff

App.91a

Pending in the District Court Since December
12, 2014 violates Plaintiffs Due Process;
B.

A declaration that Defendant Judge Paul W.
Grimm’s Refusal to Issue the Final Order
on the Pre-filing Injunction Against Plaintiff
Pending in the District Court Since December
3, 2014 amounts to punishment against
Plaintiff;

C.

A declaration that Defendant Judge Paul W.
Grimm Should Not Be Involved Any Civil
Case Involving Plaintiff at the United States
District Court for the District of Maryland;

D.

A declaration that Defendant Judge Paul
W. Grimm Should Issue the Final Order on
the Prefiling Injunction Against Plaintiff
Pending in the District Court Since December
3,2014;

E.

A declaration that Defendant Judge Paul W.
Grimm Should Not Handle Plaintiffs Civil
Case Against Toyota Motor Credit Corpora­
tion currenting Pending at the United States
District Court for the District of Maryland;

F.

A declaration that Defendant Plaintiffs Civil
Case Against Toyota Motor Credit Corpora­
tion currenting Pending at the United States
District Court for the District of Maryland
Should Be Handled By A Different Judge;

G.

A declaratory Damages-Compensatory and
Judgment-Declaratory against Judge Paul
W. Grimm;

H.

A declaration and other any relief that this
court deems just and proper, and any other

App.92a
relief as allowed by law should be granted
to Plaintiff
X.

Jury Trial Demand

83. Plaintiff hereby demands a trial by jury on
all issues so triable pursuant to and Plaintiff hereby
demands a trial by jury on all issues so triable pursu­
ant to Pursuant to Md. Rule 2-325(A); and Plaintiff
will not stipulate to a jury of less than twelve (12)
jurors.
84. Respectfully Submitted This Day Monday
February 25th, 2019.
Respectfully Submitted,
/s/ Emmanuel Edokobi
Pro Se
200 Stratton Drive
Potomac, Maryland 20854
Telephone Cell:
301-793-2882
E-mail: emmanuel2040@gmail.com

App.93a
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE FOURTH CIRCUIT
(MARCH 19, 2015)
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
EMMANUEL EDOKOBI,
Plain tiff-Appellan t,
v.
M & M MORTGAGE SERVICES, INC.; JUAN
GONZALEZ; MORTGAGE SPECIALIST, INC.;
Defendants-Appellees.
No. 14-2204
Appeal from the United States District Court for the
District of Maryland, at Greenbelt. Paul W. Grimm, ,
District Judge. (8:13-cv-03707-PWG)
Before: WILKINSON and KING, Circuit Judges, and
DAVIS, Senior Circuit Judge.
PER CURIAM:
Emmanuel Edokobi appeals the district court’s
order granting the motion to dismiss filed by M & M
Mortgage Services, Inc., and Juan Gonzalez and dis­
missing his complaint against all Defendants as barred

App.94a
by the doctrine of res judicata.* We have reviewed
the record and find no reversible error. Accordingly,
we affirm for the reasons stated by the district court.
Edokobi v. M & M Mortg. Servs., Inc., No. 8:13-cv03707-PWG (D. Md. Oct. 22, 2014). We dispense with
oral argument because the facts and legal conten­
tions are adequately presented in the materials
before this court and argument would not aid the
decisional process.
AFFIRMED

* Although the prefiling injunction determination remains pending
in the district court, it appears that the district court has completed
its consideration of the merits of this case based on its dismissal
of Edokobi’s claims. See Ray Haluch Gravel Co. v. Cent. Pension
Fund ofthe Int’l Union of Operating Eng’rs & Participating Emp’rs,
134 S. Ct. 773, 779 (2014) (holding pending motion for attorney’s
fees collateral to merits for finality purposes). We therefore
conclude that the district court’s order dismissing Edokobi’s
complaint as barred by res judicata is final and appealable.

App.95a
LETTER ORDER OF THE
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
(DECEMBER 3, 2014)
UNITED STATES DISTRICT COURT
DISTRICT OF MARYLAND
Chambers of Paul W. Grimm
United States District Judge
6500 Cherrywood Lane
Greenbelt, Maryland 20770
(301) 344-0670
(301) 344-3910 Fax
RE: Edokobi v. M & MMortgage Services Inc.
PWG-13-3707
With regard to my October 22, 2014 dismissal of
Plaintiff Emmanuel Edokobi’s claims with prejudice
and denial of Plaintiffs Motion to Enter Default
Judgment as moot, ECF No. 19, Plaintiff has filed an
“Opposition Motion to Court Order Granting Defen­
dants’ Motion to Dismiss Plaintiff s Complaint and
Opposition to Court Proposed Imposition of PreFiling Injunction and Opposition to Court Order Dis­
missing Plaintiffs Motion for Default Judgment Against
MSI,” and sought “New Trial of Civil Action No. 8:13CV-03707-PWG.” ECF No. 22. Plaintiff also filed a
Notice of Appeal of the October 22, 2014 Order to the
Fourth Circuit. ECF No. 20. Insofar as Plaintiff asks
me to reconsider the October 22, 2014 Order, Plaintiffs
Notice of Appeal divested this Court of jurisdiction to

App.96a
consider his motion. See Griggs v. Provident Discount
Co., 459 U.S. 56, 58 (1982); Panowicz v. Hancock, No.
DKC-11-2417, 2013 WL 5442959, at *2 (D. Md. Sept.
27, 2013) (citing Griggs). Additionally, I will not take
further action regarding the pre-filing injunction until
the Fourth Circuit has issued its ruling.
Although informal, this is an Order of the Court
and shall be docketed as such.
/s/
Paul W. Grimm
United States District Judge
lyb

App.97a
DEFENDANTS’ M&M MORTGAGE SERVICES
INC. AND JUAN GONZALEZ,
MOTION FOR SANCTIONS
(JUNE 9, 2016)
A Copy Of M And M Mortgage Services Inc., Mortgage
Specialist, Inc., And Juan Gonzalez’s Attorneys Motion
For Sanction Against Plaintiff That; Defendant Judge
Paul W. Grimm Granted Marked Exhibit Number 2

App.98a
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
EMMANUEL EDOKOBI,
Plaintiff,
v.
M&M MORTGAGE SERVICES, INC., ET AL.,
Defendants.
Civil Action No. 8:13-cv-03707-PWG
Defendants, M&M Mortgage Services, Inc.
(“M&M”) and Juan Gonzalez (“Mr. Gonzalez”) (col­
lectively “Defendants”), by and through their under­
signed counsel, pursuant to Rule 11(c), respectfully sub­
mit this Motion for Sanctions and for reasons state:
1. This is an action brought by a serial pro se
Plaintiff against Defendants M&M Mortgage Services,
Inc., Juan Gonzalez, and another, whereby Plaintiff
seeks compensatory, punitive, and declaratory relief
for injuries and damages allegedly sustained after
his abandoned property was inspected, secured and
winterized in 2010. This is Plaintiffs fourth (4) suit
in this Honorable Court regarding these allegations
(the prior three being fully identified and discussed
in the accompanying Memorandum of Points and
Authorities). Two of those cases have resulted in
Orders in which specific factual determinations have
been made which demonstrate that the Plaintiffs
claims are not warranted by existing law. Furthermore,

App.99a

M&M and Mr. Gonzalez represent Defendants 9 and 10
respectively who have had to respond to the Plaintiffs
harassing allegations arising out of the same set of
facts.
2. Plaintiff has been presented with an oppor­
tunity to dismiss his Complaint, but has refused to do
so.
3. M&M Mortgage Services, Inc. and Juan Gon­
zalez served, pursuant to Rule 5, a copy of this Motion
on May 16, 2014, however, to date (it now being 21
days after this motion was served on Plaintiff),
Plaintiff has refused to dismiss his Complaint against
M&M and Mr. Gonzalez. M&M and Mr. Gonzalez
pray this honorable Court incorporate herein by
reference its attached Memorandum of Points and
Authorities which is being served contemporaneously
with this instant motion.
WHEREFORE, Defendants, M&M Mortgage
Services, Inc. and Juan Gonzalez, respectfully request
that this Honorable Court grant this Motion, award
it all of its costs incurred related to responding to the
Complaint and drafting and filing this instant motion,
and grant any additional relief as this Court deems
just and necessary.

App.lOOa
Respectfully submitted,
/s/
Andrew T. Stephenson, Esq.
(#26504)
Stephen J. Marshall, Esq.
(#29632)
Franklin & Prokopik, PC
The B&O Building
Two North Charles Street,
Suite 600
Baltimore, Maryland 21201
[t] (410) 230-3612
[f] (410) 752-6868
astephenson@fandpnet.com
smarshall@fandpnet.com
Attorneys for Defendants
M & MMortgage Services, Inc. and Juan Gonzalez
Dated: 6/9/16

App.lOla
PLAINTIFF FILES OPPOSITION MOTION TO
DEFENDANTS’ M&M MORTGAGE SERVICES
INC., AND JUAN GONZALEZ MOTION
FOR SANCTIONS
(JUNE 23, 2014)
A Copy Of Plaintiffs Motion In Opposition To M And M
Mortgage Services Inc., And Juan Gonzalez’s Attorneys’
Motion For Sanction Against Plaintiff Marked Ex­
hibit Number 3

App.l02a
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
(Greenbelt, Southern Division)
EMMANUEL EDOKOBI,
Plaintiff,
v.
M&M MORTGAGE SERVICES, INC., ET AL.,
Defendants.
Civil Action No. 8:13-cv-03707-PWG
Plaintiff, EMMANUEL EDOKOBI, pro se, respect­
fully files this Opposition Motion to M&M Mortgage
Services Inc., and Juan Gonzalez’s Motion Memo­
randum of Points and Authorities in Support of their
Motion for Sanctions in the above captioned matter,
and Plaintiff by this Opposition Motion moves the
Honorable Court to Deny Defendants’ Motion, because,
Defendants’ Motion lacks merit of the law and facts
including lack of documentary evidence that contra­
dicts Plaintiffs Claims, which Plaintiff has established
in the Complaint, and that, Plaintiffs Opposition is
based on these well-stated grounds:
I.

Introduction

1. Plaintiff by this Opposition states that,
Defendants M&M Mortgage Services Inc. and Juan
Gonzalez have filed eight (8) pages of memorandum
of points and authorities in support of their motion

App.l03a

for sanctions and that, Defendants’ Motion is nothing
but, impugns and vicious attacks on Plaintiffs Com­
plaint and Plaintiff s Character and that, Defendants’
Current Motion for Sanctions is a Repetition of
Defendants’ Previous Motion to Dismiss for Failure
to State a Claim, which Defendants filed on March
25, 2014 and that, Defendants’ Motion to Dismiss is
in Docket Number 5 of this Civil Action.
2. Plaintiff by this Opposition states that, Defen­
dants’ New Current Motion for Sanctions are designed
to lure the Honorable Court into Defendants’ legal
contraptions, and that Court is a neutral and unbiased
institution, which should not be involved in assisting
Defendants to solve Defendants’ Civil Action, because,
Defendants did not consult the Court prior to ex­
ecuting those reprehensible conspiracies’ activities at
Plaintiffs House which gave rise to this civil action
against Defendants.
3. Plaintiff by this Opposition states that, it is
absolutely unfair for Defendants to file a Motion for
Sanctions, because, Plaintiff did not violate any law
and that, Plaintiff has been seriously mistreated by
the Defendants who performed numerous reprehensible
conspiracies activities at different times at Plaintiffs
House located at 2005 Stratton Drive in Potomac,
Maryland 20854 and these reprehensible conspiracies
activities performed by Defendants include; (l) Secret
inspection of Plaintiffs House on May 11, 2010; (2)
Locking of Plaintiffs House on May 29, 2010; (3)
Removal of Plaintiffs Personal Belongings inside
Plaintiffs House on May 29, 2010; and (4) Winterizing
of Plaintiffs House on December 23,.2010.
4. Plaintiff by this Opposition states that, Defen­
dants have not made any attempt to produce a single

App.l04a

documentary evidence which shows that, Defendants’
activities at Plaintiff s House were approved by Avelo
Mortgage Loan LLC, who is Plaintiffs Mortgage
Loan Servicer; before: during and after the Activities
of Defendants at Plaintiffs House, neither; did
Defendants produce an Order issued by the Circuit
Court for Montgomery County where Plaintiffs House
is located and that, Defendants in performing those
numerous reprehensible conspiracies activities at
Plaintiffs House have had to Usurp the position of
the Court, Judge and Sheriff.
5. Plaintiff by this Opposition states that, Defen­
dants in their current motion for sanctions did not
produce any documentary evidence, which contradicts
any part or portion of Plaintiffs Complaint; rather,
Defendants have produced their personal letters,
which Defendants have sent to Plaintiff to frighten
and to intimidate and to threaten Plaintiff :with the
Court Sanctions, because, Plaintiff is a Self-represented
litigant, wherefore, Defendants could scare and cow
Plaintiff into withdrawing His Civil Actions against
Defendants, and that if Plaintiff tails to withdraw
His Civil Action against Defendants, that Defendants
would use legal tools of Court Sanctions to Punish
Plaintiff
6. Plaintiff by this Opposition states that, Defen­
dants have punished Plaintiff in Many different ways,
which includes Locking of Plaintiffs I louse without
providing Plaintiff their reason or reasons for Locking
Plaintiff s House and that, Defendants Locked Plain­
tiffs House without providing Plaintiff with their
contact information, so that, Plaintiff could call Defen­
dants to find out what was the issue for locking
Plaintiffs House and that, Defendants did not provide

App.l05a

Plaintiff any prior information that, Defendants would
enter inside Plaintiffs House on May 29, 2010; as
required by Section 7 of Plaintiffs Deed of Trust.
7. Plaintiff by this Opposition states that, Defen­
dants have punished Plaintiff in many different ways,
which includes the Seizure of Plaintiffs Personal
Belongings which Defendants removed from inside
Plaintiffs House on May 29, 2010; and that, Defendants
are still keeping those Plaintiffs Personal Belonging
and that Plaintiff does not know the reason or reasons
for Defendants to be keeping Plaintiffs Belongings,
and that, it is absolutely unfair for Defend to Seized
Plaintiff s Personal Belongings.
8. Plaintiff by this Opposition states that Defen­
dants have punished Plaintiff in many different ways,
which includes Performing Secret Inspection of
Plaintiffs House on May 11, 2010; and that, Defendants
had no reason for Performing Secret Inspection of
Plaintiffs House, whereas Defendants could have
called Plaintiff to obtain any information that, they
wanted about Plaintiffs House.
9. Plaintiff by this Opposition states that, Defen­
dants have punished Plaintiff in many different ways,
which includes Winterization of Plaintiffs House on
December 23, 2010; and that Defendants Winterized
Plaintiffs House and refused to provide Plaintiff
information on their Winterization Activities, so that,
Plaintiff would add the information about the Winter­
ization of Plaintiffs House to the Metropolitan Regional
Information Systems, Inc., (MRIS, where Plaintiffs
House was listed for Sale at the time of Defendants’
Winterization of Plaintiffs House on December 23,
2010.

App.l06a

10. Plaintiff by this Opposition states that, Defen­
dants have at this time decided to punish Plaintiff
with Court Sanctions, because, Plaintiff filed a civil
action against Defendants who have been mistreating
Plaintiff in many different ways, which arc numerated
in the preceding paragraphs, and that, Plaintiff has
had enough of Defendants’ punishments.
11. Plaintiff by this Opposition urges the Honorab!e Court to Deny Defendants’ Motion for Sanctions,
because; Defendants’ Motion was filed in bad faith,
and that Defendants want to use the Court Sanctions
to punish Plaintiff for filing a civil action against
Defendants, who had performed those reprehensible
conspiracies activities at Plaintiffs House, and that,
Defendants performed those reprehensible conspiracies
activities at Plaintiffs House without Court Order and
without Work Order issued by Avelo Mortgage LLC
who is the Plaintiffs Mortgage Loan Servicer, before:
during and after Defendants’ activities at Plaintiffs
House, and that, Defendants in performing those
numerous reprehensible conspiracies activities at
Plaintiffs House; that, Defendants have had to Usurp
the position of the Court; Judge and Sheriff.
12. Plaintiff by this Motion urges the Honorable
Court to Deny Defendants’ Motion for Sanctions;
because, Plaintiff did not commit any crime by filing
a civil action against Defendants for those Defendants’
reprehensible conspiracies activities, which Defendants
performed at different times at Plaintiffs House
located at 2005 Stratton Drive in Potomac, Maryland
20854 which include; (l) Secret. Inspection of Plaintiffs
House on May 11, 2010; (2) Locking of Plaintiffs
House on May 29, 2010; (3) Removal of Plaintiff s
Personal Belongings inside Plaintiffs House on May 29,

App.l07a

2010; and (4) Winterizing of Plaintiffs House on
December 23, 2010, and that, Defendants performed
each activity without Court Order and without Work
Order issued by Avelo Mortgage Loan LLC who is
the Plaintiffs Mortgage Loan Servicer, before: during
and after Defendants’ activities at Plaintiff s House.
II.

Statement of Undisputed Facts

13. Plaintiff by this Opposition states that, Defen­
dants have developed a legal mechanism by which
Defendants could scare and cow Plaintiff and one of
those Defendants’ legal mechanisms is to label Plaintiff
a serial nro-se litigant as indicated hereunder follows:
1 Plaintiff, Emmanuel Edokobi (hereinafterPlaintiff’). a serial pro-se litigant, has filed an
eleven (ll) count Complaint against Defen­
dants and Mortgage Specialist Inc. The
Complaint, as discussed in more detail
below, is a restatement of allegations and
claims that have been litigated in this
Honorable Court (all previously found to be
without merit and either dismissed or judg­
ment entered in favor of defendants by this
Honorable Court). Plaintiff alleges in his
Complaint that the Defendants, and Mort­
gage Specialist Inc., acted to secure a
property which was collateral for a deed of
trust, conspired to violate his constitutional
rights and committed other torts in violation
of Federal and Maryland law. See Compl.
(ECF 11. According to the Complaint, the
alleged conspiracy was hatched on May 11,
2010, when the Defendants allegedly began
conspiring against the Plaintiff, when a

App.l08a
visual inspection was performed on his then
abandoned home, when a lock-box was
installed on Plaintiffs front door, and when
his house was subsequently winterized.
14. Plaintiff by this Opposition stated that, Defen­
dants in deploying their legal mechanism have resolved
in blackmailing Plaintiff by calling Plaintiff names,
which includes a serial pro-se litigant, and that
Defendants legal tactics cannot work at this time,
because of these statement of undisputed facts:
15. Plaintiff by this Opposition states that, it is
undisputed fact, that; Plaintiff is the owner of a
Single Family; Property used as a residential home
located at 2005 Stratton Drive Potomac Maryland
Zip Code 20854-6137, in the Legal Subdivision Section
[3] of Potomac Woods; and the Property Tax Identifica­
tion Number [is] 160400190281, with Montgomery
County of Maryland Registered Deed Number (l)/
34501/007602 and Deed of Trust recorded in Libber
31671 at Folio 791 in the Land Records with Parcel
ID Number 160400190281 of Montgomery County, and
with Montgomery County Account Identifier Number
00190281, and with City of Rockville Service Account
Number 3311-000033.02, with Avelo Mortgage LLC’s
Loan Servicing Number 100495159. and that, the
Property aforedescribed belongs to Emmanuel Edokobi,
16. Plaintiff by this Opposition states that, it is
undisputed fact, that; Plaintiff has lawfully seized
the estate described above and that he has the right
to grant and convey the Property and that the Property
is unencumbered, except for encumbrances of record,
and that Plaintiff warrants according to the Deed of
Trust to defend generally the title to the Property
against all claims and demands, subject to any encum-

App.l09a

brances of record, and that; Plaintiffs House has not
suffered any form of Foreclosure and there is no
Judgment Lien against Plaintiffs House.
17. Plaintiff by this Opposition states that, it is
undisputed fact, that; Litton Loan Servicing LP is not
Plaintiffs Mortgage Loan Servicer during the period
of Defendant reprehensible conspiracies activities at
Plaintiffs House located at 2005 Stratton Drive in
Potomac, Maryland 20854 and that, Litton Loan
Servicing LP does not have any Legal Authority over
Plaintiff s Property that permits Litton to Issue Work
Orders. See Plaintiffs Property Tax Bill Records,
which are Marked Exhibits 5, 6, 7, 8 and Sailed
along with Plaintiffs Complaint in Docket Number 1
of this civil action.
18. Plaintiff by this Opposition states that, it is
undisputed fact, that; Avelo Mortgage Loan LLC, is
the Plaintiff s Mortgage Loan Servicer; before: during
and after the reprehensible conspiracies activities of
Defendants at Plaintiffs House at 2005 Stratton Drive
in Potomac, Maryland 20854, See Plaintiffs Property
Tax Bill Records, which are Marked Exhibits 5, 6, 7,
8 and 9 including Exhibits 10, 11, 12, 13, 14, 15 and
16 filed along with Plaintiffs Complaint in Docket
Number 1 of civil action.
19. Plaintiff by this Opposition states that, it is
undisputed fact, that; Plaintiff has never abandoned
His House at 2005 Stratton Drive in Potomac, Mary­
land 20854, Since; Plaintiff Purchased His Properly
on December 23, 2005 and that, Plaintiff has con­
tinued to own His Property at 2005 Stratton Drive in
Potomac, Maryland 20854 and that Plaintiff has
continued to live in His Property at 2005 Stratton Drive
in Potomac, Maryland 20854 until this very moment.

App.llOa

20. Plaintiff by this Opposition states that, it is
undisputed fact, that; Defendants without Work Order
issued by Avelo Mortgage Loan LLC who is the
Plaintiff s Mortgage Loan Servicer Locked Plaintiff s
House on May 29, 2010.
21. Plaintiff by this Opposition states that, it is
undisputed fact, that; Defendants Locked Plaintiffs
House, and that, Defendants did not provide Plaintiff
with Defendants’ contact information, so that, Plaintiff
could call Defendants to find out what was issue for
locking Plaintiffs House.
22. Plaintiff by this Opposition states that, it is
undisputed fact, that; Defendants without Work Order
issued by Avelo Mortgage Loan LLC who is the
Plaintiffs Mortgage Loan Servicer entered inside
Plaintiffs House on May 29, 2010 and Removed all
those Plaintiffs Personal Belongings, inside Plaintiffs
House, and that, Defendants are still keeping Plaintiffs
Personal Belongings.
23. Plaintiff by this Opposition states that, it is
undisputed fact, that; Defendants are still holding on
those Plaintiffs Personal Belongings which Defendants
Removed from inside Plaintiffs House on May 29,
2010 and that, Plaintiff is requesting that, Defendants
should release Plaintiffs Personal Belongings back
to Plaintiff. See pages 10,1 1, 12 and 13 of Plaintiffs
Complaint.
24. Plaintiff by this Opposition states that, it is
undisputed fact, that; Defendants on December 23,
2010 Winterized Plaintiffs House at 2005 Stratton
Drive in Potomac, Maryland 20854 and that, Defen­
dants did not provide Plaintiff any information regard­
ing Defendants’ Winterization Activities, and that,

App.llla

Defendants did not obtain a work order from Avelo
Mortgage Loan LLC who is the Plaintiffs Mortgage
Loan Servicer prior to Winterizing Plaintiffs House.
25. Plaintiff by this Opposition states that, it is
undisputed fact, that; Defendants conducted Secret
inspection of Plaintiffs House on May 11, 2010 and
that, Defendants did not obtain an authorization
from Avelo Mortgage Loan LLC who is Plaintiffs
Mortgage Loan Servicer prior to conducting the Secret
Inspection of Plaintiffs House on May 11, 2010.
26. Plaintiff by this Opposition states that, it is
undisputed fact, that; Defendants Are Not Plaintiffs
Mortgage Loan Servicer and that, Plaintiff does not
know Defendants and that, Plaintiff has not had any
business transactions directly or indirectly with Defen­
dants and that, Plaintiffs does not own Defendants
any financial obligation that, would have given them
power to Lock Plaintiff s House.
27. Plaintiff by this Opposition states that, it is
undisputed fact, that; in the Entire State of Maryland:
that, “It is only Plaintiffs House that, was Locked by
People Who Are Not Connected” to Plaintiffs Mortgage
Loan.
28. Plaintiff by this Opposition states that, it is
undisputed fact, that; in the Entire State of Maryland:
that, “It is only Plaintiffs Personal Belongings that;
were Seized by. People Who Are Not Connected” to
Plaintiffs Mortgage Loan.
29. Plaintiff by this Opposition states that it is
undisputed fact, that; in the Entire Montgomery
County of Maryland; that, “It is only Plaintiff s House
that, was Locked by People Who Are Not Connected”
to Plaintiff s Mortgage Loan.

App.ll2a

30. Plaintiff by this Opposition states that it is
undisputed fact, that; in the Entire Montgomery County
of Maryland; that, “It is only Plaintiffs Personal
Belongings that; were Seized by People Who Are Not
Connected” to Plaintiffs Mortgage Loan.
31. Plaintiff by this Opposition urges the Honor­
able to Deny Defendants’ Motion for Sanctions,
because, Defendants have not provided any evidence
which shows that, Plaintiff abandoned His House at
2005 Stratton Drive in Potomac, Maryland 20854;
and for which, Defendants would need to secure the
Property by Locking the Property on May 29, 2010.
32. Plaintiff by this Opposition urges the Honor­
able Court to Deny Defendants’ Motion for Sanctions;
because, Defendants’ Motion for Sanctions is another
method to further Punish Plaintiff and that, Plaintiff
has had enough of Punishments from Defendants.
II.

Argument

33. Plaintiff by this Opposition argues that, this
is a civil case against Defendants who had performed
those reprehensible conspiracies activities without
Court Order and without Work Order issued by Avelo
Mortgage LLC who is the Plaintiffs Mortgage Loan
Servicer and those Defendants’ activities at Plaintiffs
House located at 2005 Stratton Drive in Potomac,
Maryland 20854 include the following; (l) Secret
Inspection of Plaintiffs House on May 11, 2010; (2)
Locking of Plaintiffs House on May 29, 2010; (3)
Removal of Plaintiffs Personal Belongings inside
Plaintiffs House on May 29, 2010; and (4) Winterizing
of Plaintiffs House on December 23, 2010. See para­
graph 11 in pages 2 and 3 of this civil case.

App.ll3a

34. Plaintiff by this Opposition argues that,
Defendants have not yet disputed that; they did not
perform any of those reprehensible conspiracies
activities at Plaintiff s House, rather, Defendants have
developed a scheme by which, Defendants would use
Court’s apparatus of sanctions to scar away Plaintiff
by filing motion for sanctions and writing threatening
letters to Plaintiff. See Defendants’ Exhibits 1 and 2,
in Docket Number 16, of this civil case.
35. Plaintiff by this Opposition argues that,
Plaintiff had filed this civil case against Defendants
on December 9, 2013 at the United States District
Court for the District of Maryland Southern Division
and that, this civil case against Defendants has had
to undergo a thoroughgoing-macroscopic review by
the United States District Court for the District of
Maryland’s case reviewers prior to allowing the
issuance of summons to Defendants on January 30,
2014. See Docket Number 1 and 2 of this civil case.
36. Plaintiff by this Opposition argues that, this
civil case against Defendants is unique in its composi­
tion, because, Senior Judge Senior Judge Frederick
J. Motz indorsed this Civil Action against Defendants
and that, Litton Loan Servicing LP’s Attorneys also
indorsed this Civil Action against Defendants. See
Page 2 of Exhibit Number 18 in Docket Number 12 of
this civil case.
37. Plaintiff by this Opposition argues that, Plain­
tiff is protected by the State Maryland Constitution
and Declaration of Rights, Article 9; States in relevant
part:
That every man, for any injury done to him in
his person or property, ought to have remedy

App.ll4a

by the course of the Law of the land, and
Ought to have justice and right, freely without
sale, fully without any denial, and speedily
without delay, according to the Law of the
land.
38. Plaintiff by this Opposition argues that,
Plaintiff is a Citizen of the Slate of Maryland and
that, Article 9 of the State Maryland Constitution and
Declaration of Rights protects Plaintiff from being,
sanctioned, because, State Maryland Constitution and
Declaration of Rights makes it clear that, “every man,
for any injury done to him in his person or property,
ought to have remedy by the course of the Law of the
land, and ought to have justice and right, freely with­
out sale, fully without any denial, and speedily with­
out delay, according to the Law of the land”.
39. Plaintiff by this Opposition argues that,
Plaintiff is a Citizen of the State of Maryland that,
Plaintiff reserves the right to file a civil action against
Defendants for the injury which Defendants had
inflicted upon Plaintiff by Seizing Plaintiff s Personal
Belongings on May 29, 2010 and for the injury that,
Defendants had done to Plaintiffs House by Locking
Plaintiffs House on May 2010.
40. Plaintiff by this Opposition argues that,
Plaintiff is a Citizen of United States of America and
that, Plaintiff has invoked the Federal Rules of Civil
Procedure, Rule 9 (a) a party’s capacity to sue or be
sued and that, Federal Rules of Civil Procedure, Rule
9 (a) protects Plaintiff from being sanctioned.
41. Plaintiff by this Opposition urges the
Honorable Court to Deny Defendants’ Motion far
Sanctioned, because, Defendants want to lure the

App.ll5a

Honorable into a civil case in which the Court serves
as the Arbiter, which makes it mandatory for the
Honorable Court to remain neutral and unbiased.
42. Plaintiff by this Opposition urges the Honorable
Court to Deny Defendants’ Motion for Sanctions,
because, Defendants want to use Judicial Apparatus
of Sanctions to achieve judgment, and that, it is
unfair that, Defendants are applying these tactics of
filing motion for sanctions in a civil case that is
obvious that, Defendants did what should never have
done in the first place,
43. Plaintiff by this Opposition urges the Honor­
able Court to Deny Defendants’ Motion for Sanctions,
because; Defendants have not made any attempt to
produce a single documentary evidence which shows
that, Defendants’ activities at Plaintiffs House were
approved by Avelo Mortgage Loan LLC, who is
Plaintiffs Mortgage Loan Servicer; before; during
and after the activities of Defendants at Plaintiffs
House, neither did Defendants produce an Order
issued by the Circuit Court for Montgomery County
where Plaintiffs House is located and that, Defendants
in performing those reprehensible conspiracies
activities at Plaintiffs House have had to Usurp the
position of the Court, Judge and Sheriff.
Respectfully submitted,
/s/ Emmanuel Edokobi
Pro Se
200 Stratton Drive
Potomac, Maryland 20854
Telephone Cell: 301-793-2882
E-mail: eedokobi@yahoo.com

App.ll6a
DEFENDANTS’ M&M MORTGAGE SERVICES
INC. AND JUAN GONZALEZ, REPLY TO
PLAINTIFFS OPPOSITION TO
DEFENDANT’S MOTION TO DISMISS
THE PLAINTIFF’S COMPLAINT
(MAY 1, 2014)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
EMMANUEL EDOKOBI,
Plaintiff,
v.
M & M MORTGAGE SERVICES, INC., ET AL.,
Defendants.
Civil Action No. 8:13-cv-03707-PWG
This reply can not address on a point-by-point basis
the number of inaccurate and false pronunciations of
procedural history, fact, and law made in the Plaintiffs
Opposition to the Defendant’s Motion to Dismiss
(ECF 12). It is, however, patently unfair for Defendants
to continue to face harassing litigation arising out of
facts which this Honorable Court has already heard
and judged to be without merit. Regardless, there are
two primary themes which run through Plaintiffs
Opposition (ECF 12) which this reply is respectfully
submitted to address: (l) that Judge Motz and the

App.ll7a

attorneys in a pervious action “indorsed” this instant
matter; (2) that Plaintiffs claims are immune from
the effects of res judicata and collateral estoppel.
Plaintiff repeatedly states that Judge Motz
“indorsed” this instant action. That is simply not
true. Upon a review of the Court’s docket for Emmanuel
Edokobi v. Litton Loan ServicingLP, Case No.: JFM
11-1332 (the “Litton Action”) the Court did not rule
on the Plaintiffs motion to join the present Defendant
M&M Services, Inc. to that action (id. ECF 65). Instead,
Judge Motz granted summary judgment in favor of
Litton Loan Services, LP. Id. ECF 83, 84. Plaintiff relies
on a two sentence argument of counsel for Litton
Loan Services LP in their opposition to the Plaintiff s
motion (id. ECF 70) to posit that his current action is
“indorsed” by Judge Motz. It is this type of blatant
misrepresentation of facts and procedural history
which belies this matter and which should ultimately
lead to its dismissal with prejudice. Regardless, it is
the entry of summary judgment in that matter which
bars Plaintiffs current claims by operation of both
res judicata and non-mutual collateral estoppel.1
Significantly, Plaintiff offers no substantive argu­
ments to rebut the conclusion that his claim is barred
1 Undersigned counsel unartfully applied the term “Offensive
Collateral Estoppel” in Defendant’s Motion to Dismiss and
Memorandum submitted in support thereof. EFC No. 5 and 5-1.
The proper term that should have been applied was non-mutual
collateral estoppel. For all purposes, however, the different
terminology, as it applies to this matter creates a distinction
without a difference as the elements to establish the application
of the doctrine are nearly identical as it relates to this instant
matter. See e.g. Wash. Suburban Sanitary Comm’n v. TKU
Associates, 281 Md. 1 (1977).

App.ll8a
in its entirety because of res judicata. As outlined in
the Defendant’s Memorandum of Points and Author­
ities offered in support of their Motion to Dismiss
(ECF 5-1), Plaintiffs claims are barred by res judicata
as the Complaint (ECF l) establishes that Defendants
were in privity with Litton Loan Servicing LP, that
the allegations in the Complaint arise out of the
same transaction as alleged in the Litton Action, and
that there was a final judgment in the Litton Action.
See ECF 5-1 at p. 8-9. It is settled law that “A
summary judgment dismissal is a final adjudication
on the merits under Fourth Circuit cases and under
the Maryland authorities.” Pottratz v. Davis, 588 F.
Supp. 949 (D. Md. 1984) (emphasis in original).
Plaintiff complains that no documentary evidence
was presented to show that the Litton Action “was
exposed to res judicata.” ECF 12 at p. 23. The record,
however, demonstrates that by Plaintiffs own admis­
sions contained in instant Complaint which establish
Defendants’ privity with Litton Loan Services, and the
fact that summary judgment was entered in Litton
Action, demonstrates that Plaintiffs claims are barred
by res judicata.
As to collateral estoppel, the Fourth Circuit, this
Honorable Court and the Courts of Maryland have
all recognized that the doctrine of collateral estoppel
precludes the relitigation of issues of fact or law
which have already been decided against a party
that had a full and opportunity to litigate their case.
See e.g. Virginia Hosp. Assn v. Baliles, 830 F. 2d
1308, 1311-1312 (4th Cir. 1987), Feldman’s Medical
Center Pharmacy, Inc. v. CareFirst, Inc., 959 F.Supp.2d
783, 795 (2013), Wash. Suburban Sanitary Comm’n
v. TKU Associates, 281 Md. 1 (1977). As best as

App.ll9a
Defendants can decipher, the Plaintiff cited to two
cases to argue that his claims are not barred by the
doctrine of collateral estoppel: Allen v. McCurry, 449
U.S. 90 (1980) and Triplett v. Lowell, 297 U.S. 638
(1936). These cases, however, do not assist the Plaintiff.
Rather, to the contrary, they add additional support
to the Defendant’s position that the Plaintiffs claims
are barred by collateral estoppel. Triplett, for example
was overruled by Blonder-Tongue Laboratories v.
University ofIllinois Foundation, 402 U.S. 313 (1971)
(“Thus, we conclude that Triplett should be overruled
to the extent it forecloses a plea of estoppel by one
facing a charge of infringement of a patent that has
once been declared invalid.). The Court’s decision in
Allen is even more helpful to the Defendants’ position
in that the Court highlights that Civil Rights claims
can be barred by the application of the doctrines of res
judicata and collateral estoppel. 449 U.S. 90, 104
(1980) (“There is, in short, no reason to believe that
Congress intended to provide a person claiming a
federal right an unrestricted opportunity to relitigate
an issue already decided in state court simply because
the issue arose in a state proceeding in which he
would rather not have been engaged at all.”)
As Plaintiff is simply attempting to relitigate his
failed claims, this Honorable Court should dismiss
the Plaintiffs Complaint as “res judicata and collateral
estoppel relieve parties of the cost and vexation of
multiple lawsuits, conserve judicial resources, and,
by preventing inconsistent decisions, encourage reliance
on adjudication.” Id. at p. 94 (citation omitted).
The Plaintiff has also failed to address in his
Opposition the fact that the majority of his claims
are barred by the applicable statute of limitations by

App.l20a
ignoring the controlling law on the issue. See MD.
Code Ann., Cts. & Jud. Proc. § 5-101; McCausland v.
Mason County Board of Ed., 649 F.2d 278, 279 (4th
Cir, WV, 2002). Likewise, Plaintiff does not address
the effect of his failure to plead any racial or other
class-based discrimination as it relates to his 1985
(3) claims. See Harrison v. KVATFood Management,
766 F.2d 155, 158-159 (4th Cir 1985). Nor has
Plaintiff addressed the fact that the actions which he
contends were illegal, were in inherently legal. See,
e g. Suss v. JP Morgan Chase Bank, NA, WMN-091627, 2010 U.S. Dist. LEXIS 68777, at *13-*16 (D.
Md. July 9, 2010); Larota-Florez v. Goldman Sachs
Mortg, 719 F. Supp. 2d 636, 641 (E.D. Va. 2010).
For all of the foregoing reasons this Honorable
Court should dismiss the Plaintiffs Complaint with
prejudice.

App.l21a

Respectfully submitted,
/s/
Andrew T. Stephenson, Esq.
(#26504)
Stephen J. Marshall, Esq.
(#29632)
Franklin & Prokopik, PC
The B&O Building
Two North Charles Street,
Suite 600
Baltimore, Maryland 21201
[t] (410) 230-3612
[f] (410) 752-6868
astephenson@fandpnet.com
smarshall@fandpnet.com
Attorneys for Defendants
M & MMortgage Services, Inc. and Juan Gonzalez
Dated: 6/9/16

Blank Page

SUPREME COURT
PRESS

